                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                              PRE-AUDIT SURVEY OF THE
                  MISSISSIPPI COMMISSION FOR VOLUNTEER SERVICE

                                  OIG Audit Report Number 0 1- 15
                                        August 25,2000




                                             Prepared by:

                                            KPMG LLP
                                         2001 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9GOV203




This report was issued to Corporation management on December 21, 2000. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than June 19, 2001, and complete its corrective actions by December 21,
2001. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                  Office of Inspector General
                        Corporation for National and Community Service                     CORPORATION

                                                                                            FOR NATIONAL
                                    Pre-Audit Survey of the
                          Mississippi Commission for Volunteer Service
                                OIG Audit Report Number 01-15



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting), and
the use of training and technical assistance funds. For each survey, we will issue a report to the state
commission and to the Corporation communicating the results and making recommendations for
improvement, as appropriate.

 We engaged KPMG LLP to perform the pre-audit survey of the Mississippi Commissionfor Volunteer
 Service. Based on the limitedproceduresperformed, KPMG concluded that the Commission administers
 an open, competitive process to select national sewice subgrantees and its control policies and
procedures for fiscal administration and sub-recipient oversight are adequate. However, KPMG
 recommended that the Commission continue its initiatives to improve descriptions of member service
 activities on timesheets. Lastly, KPMG concluded that the Commission has established controls to
 evaluate and monitor subgrantees. However, KPMG recommended that the Commission improve its
process for determining whether subgrantees have been audited in accordance with Oflce of
 Management and Budget (OMB) Circular A-1 33, "Audits of States, Local Governments, and Non-Profit
 Organizations". In addition, KPMG recommended that the Office ofInspector Generalperform limited
 auditingprocedures tofollow-up on issues identfied by this pre-audit survey and that the Corporation
follow-up to determine that appropriate corrective actions have been put into place.


                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.

The Mississippi Commission's response (Appendix C) describes its continuing corrective actions in
response to the report's recommendations. The Corporation's response (Appendix D) argues against
improvements in reporting member service activities because such requirements have not been
established in CNS or OMB current requirements; takes issue with conditions reported related to its Web
Based Reporting systems (WBRS); and indicates its awareness of issues relating to the Commission's
tracking of subgrantee audit reports.
                                           Pre-Audit Survey of the
                                Mississippi Commission for Volunteer Service
                                              Table of Contents



RESULTS IN BRIEF .................................................................................................................... 1

BACKGROUND .............................................................................................................................2

OVERVIEW OF THE MISSISSIPPI COMMISSION.................................................................. 3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................
                                                                                                         3

FINDINGS AND RECOMMENDATIONS ....................................................................................
                                                                                                               5

                     .
APPENDIX A COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 .........................A.1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                           B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. MISSISSIPPI COMMISSION FOR VOLUNTEER
   SERVICE RESPONSE ......................................................................................................... C . 1

APPENDIX D. CORPORATION RESPONSE ...........................................................................D . 1
            2001 M Street, N.W.
            Washington, DC 20036




August 25,2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Mississippi
Commission for Volunteer Service (the Commission). The primary purpose of this survey was
to provide a preliminary assessment of

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees.

    The Commission has developed adequate control policies and procedures to administer the
    Corporation's grant funds. However, the Commission should continue to work with
    subgrantees to improve descriptions on timesheets to provide a clear identification of
    program service activities performed.

    The Commission has established controls to evaluate and monitor subgrantees. However,
    the Commission should improve its process for determining whether subgrantees have been
    audited in accordance with Office of Management and Budget (OMB) Circular A-133,
    Audits of States, Local Governments, and Non-Profit Organizations, and documenting the
    results of its review of those reports.

The section below entitled Findings and Recommendations describes the weakness noted above
in further detail and addresses additional issues noted during the survey.




1111          KPMG LLP KPMG LLP a U S h t e d l ~ a b l t ybartnershp
              a rnernbel of KPMG nternat8onal a Swss ascociamn
                                                                        IS
The Commission's AmeriCorps grants were identified as a major program and tested as part of
an OMB Circular A-133 audit performed by the State of Mississippi - Office of State Auditor.
Therefore, based on our preliminary assessments and the low number of findings, we
recommend the performance of limited audit procedures to address the findings related to OMB
Circular A-133 audit reports and monitoring.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, ArneriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the Mississippi Commission

The Mississippi Commission for Volunteer Service, located in Jackson, Mississippi, has received
ArneriCorps grant funds from the Corporation for National and Community Service since
program year 1994-95. The Commission operates as part of the State of Mississippi's
Institutions of Higher Learning. The Commission has eight employees including an Executive
Director, Deputy Director, two fiscal employees, office manager, and three program
coordinators. The Executive Director has been with the Commission since 1994, as have several
other members of the staff. The tenure of key employees, along with a single location since
inception, has contributed to the Commission's ability to operate consistently and retain
documentation in an orderly fashion.

As part of Institutions of Higher Learning of the State of Mississippi, the Commission is
annually tested as part of an OMB Circular A- 133 audit performed by the Mississippi State
Auditors' Office.

The Commission provided us with the following information for all program years:



                                                                          Number of
                                                                          Subgrantees
                             Total Corporation         Number of        Subject to A-133
        Promam Year              Funding               Submantees           Audits*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for each program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds fi-om other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its ArneriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Standards Tool, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000.

    performing procedures to achieve the objectives detailed in Appendix B to assess the
    Commission's internal controls, selection of subgrantees, administration of grant funds, and
    monitoring of grants, including internal controls over service hour and program
    accomplishment reporting.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on August 30,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and Corporation's responses to our findings and recommendations are included as Appendix C
and D respectively.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR 2550.80, "Each State must administer a competitive process to select
national service programs to be included in any application to the Corporation for funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspapers and
newsletters. In addition, selection officials sign conflict of interest statements annually, receive
an instruction package, and use a standard form to evaluate each applicant, which includes an
evaluation of the applicants' financial systems.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR 2541.400).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports (FSRs) timely; to manage cash draw downs and disbursements to subgrantees
made by the Mississippi Institutions of Higher Learning as the Commission's fiscal agent; and to
ascertain whether subgrantees have met their matching requirements. The Commission's
personnel have adequate skills and experience to manage and administer Corporation grant
funds. However, we identified the following area for improvement within the administering
process.

        Descriptions of Member Service on Timesheets

Descriptions provided on timesheets selected for review related to Member service performed
were sometimes vague or without clear relation to program service. As a result, descriptions for
Member service performed do not clearly support that service hours were used in performing
allowable activities. AmeriCorps Provisions Section B. 1 states, "Activities funded through this
grant must help engage Americans of all backgrounds as members in community based service
that provides a direct and demonstrable benefit that is valued by the community." No
recommendation for this finding is considered necessary at this time because the Commission
redesigned all program timesheets in 2000 to improve information captured during timesheet
reporting.

We determined that the Commission has not fully implemented Web Based Reporting System
(WBRS). The Commission personnel shared the following concerns about WBRS with KPMG:

         WBRS has had problems uploading state and program profiles on the system in a timely
         manner for programs to begin Member enrollment, etc.
       The current WBRS system which produces the financial status quarterly reports through
       the monthly program periodic expense reports does not have a signature process in place,
       and therefore no proof exists to verify that proper officials compiled and reviewed the
       information. Also, WBRS does not work for programs that are funded for more than one
       year.

       WBRS progress reports are limited to only two for the entire year. This limits the
       Commission's monitoring of program goals and objectives with regards to
       accomplishments and outcomes. Since only two reports are required, program
       monitoring relies more heavily upon Commission site visits whereby the progress is
       more observational than written.

Our discussions with Commission personnel indicate that they are using WBRS when possible,
but still maintaining the prior processes until WBRS is fully functional for their needs. The
Commission still requires subgrantees to submit three progress reports to effectively monitor,
provide continuous improvement feedback, and demonstrate results orientated outcome and
accomplishments.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. The Commission has established controls to evaluate and monitor subgrantees, which
include reviewing program and financial reports and scheduling site visits for each subgrantee
during the grant period. Commission personnel use a standard site visit report form to document
results of each visit, and the Commission notifies the subgrantees of the results of these site
visits, including strengths, weaknesses, concerns, recommendations, and any necessary follow-
up requirements.

In addition, the Commission evaluates program accomplishments reported by the subgrantees.
The Commission uses a standard form to compile program objectives which were originally
stated in the grant application. By establishing the objectives in this format and sharing it with
the subgrantees at the beginning of the program year, it is clear how the program will be
evaluated and what types of documentation must be maintained. Three times per year, the
Commission requires that the programs address their accomplishments towards meeting the
stated objectives, citing both numerical and other informational data. The Commission
personnel then verify this information as part of their site visits.

However, we identified the following area for improvement related to the evaluation and
monitoring of subgrantees.

        Review of OMB Circular A-133 Audit Reports

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control suggests
that review of and follow-up on subgrantees' audit reports is a key component of a program to
monitor subgrantees' compliance with federal grant requirements. However, the Commission
has not implemented an adequate process for obtaining and reviewing OMB Circular A-133
audit reports for its subgrantees.
        Recommendations

We recommend that the Commission improve its evaluation and monitoring of subgrantees by
developing and implementing a process for obtaining and following up on OMB Circular A- 133
audit reports for its subgrantees. This process should include documenting, for each of its
subgrantees, (1) whether an OMB Circular A-133 audit was required to be conducted, (2)
whether the audit was actually conducted, (3) collection and review of the report, and (4) follow
up procedures performed for missing reports and to resolve reported findings.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Mississippi Commission for Volunteer Service, and the United States Congress and is not
intended to be and should not be used by anyone other than these specified parties.
                                Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding
over the past six program years.

Funding Source
and T v ~ e

CNS Formula
 Grant Funds

CNS Competitive
 Grant Funds

CNS Learn and
 Serve Funds

CNS PDAT Funds

CNS Administrative
 Funds

Subtitle H

Disability

America Reads

Promise Fellows

Carryover

State Matching
 Funds
                         Commission Funding                                           Appendix A




                       Corporation for National Service

    Funding to the Mississippi Commission for Volunteer Service - 1994




         I                                   I                                    I

     Amencorps                           Learn and                          Administration
      Formula                              Serve                               Funds
       Funds                              Funds
      $525,825                           $164,000                             $171,177

       Match                              Match                                 Match
        $0                                 $0                                  $32,235

                                                                        I




        v                                   v                                    v
             Total CNS Funds Retained by the Commission $17 1,177

                   Total Commission Matching Funds $32,235

               Total CNS Funds Awarded to Sub-grantees $689,825
I




                            v                              v
                      Amencorps                      Learn & Serve:
                       Formula:
                       $525,825                         $164,000

                         Match                            Match
                        $142,893                         $34,160

                     Total # of SUBS                 Total # o f SUBS
                             3                               5

                      Total # of Sites               Total # of Sites
                             16                             5
                                       Commission Funding                                            Appendix A




                                     Corporation for National Service


    I
    I
            Funding to the Mississippi Commission for Volunteer Service - 1995




                  Ameri Corps                  Leam and                  PDAT                  Administration
                   Formula                       Serve                   Funds                     Funds
                    Funds                       Funds                                            $207,255
                   $599,456                     $74,393                  $75,000                   Match
                                                                                                  $63,947
                    Match                       Match                                           Other CNS
                     $0                          $0                                                Funds
                                                                                                  $63,479




        I
                      v                           v                        v                        v
                    Total CNS Funds Retained by the Commission $282,255

                                Total Commission Matching Funds $63,947


        I              Total CNS Funds Awarded to Sub-grantees $737,328




                             AmeriCorps
                                                            *
                                                      Leam & Serve:
                                                                                    *
                                                                                 Disability
                              Formula:                                            Funds:
                              $599,456                    $74,393                 $63,479

                                 Match                     Match                   Match
                                $332,331                  $106,924                  $0

                            Total # of SUBS           Total # of SUBS       Total # of SUBS
                                                              5                     1

                            Total # of Sites          Total # of Sites      Total # of Sites
                                                             5                     1



Note: CNS approved $154,384 and $73,607 of carryover from 1994 for use in 1995 for the AmeriCorps
      Formula and Learn and Serve grants, respectively. These amounts are not reflected above.
         Formula
          Funds
         $528,046

          Match




            +
                                Subtitle


                               $323,118

                                Match




                              AmeriCorps
                               Formula:
                               $528,046
                                        Commission Funding




                                $3 11,960

                             Total # of SUBS


                             Total # of Sites
                                                  Learn and

                                                    Funds
                                                   $1 85,025

                                                    Match




                                                    Subtitle
                                                      H
                                                   $323,118

                                                     Match
                                                    $182,904

                                                Total # of SUBS
                                                        2

                                                 Total # of Sites
                                                        2
                                                                    .
                                      Corporation for National Service

                  Funding to the Mississippi Commission for Volunteer Service - 1996




                        Total CNS Funds Retained by the Commission $227,679

                               Total Commission Matching Funds $67,67 1

                         Total CNS Funds Awarded to Sub-grantees $1,036,189



                                                &
                                                                     Learn & Serve:

                                                                       $1 85,025

                                                                        Match
                                                                       $1 11,375

                                                                    Total # o f SUBS


                                                                     Total #of Sites
                                                                                        Appendix A




Note: CNS approved $140,755, $2,975, and $53,865 of carryover from 1995 for use in 1996 for the AmeriCorps
      Formula, Learn and Serve, and PDAT grants, respectively. These amounts are not reflected above.
                                                 Commission Funding                                         Appendix A




                                                Corporation for National Service

                    Funding to the Mississippi Commission for Volunteer Service - 1997




       P




       -
              H
               I


            Subtitle


            $30,000

            Match
             $0




              v
                                          I


                                   AmeriCorps
                                     Formula
                                      Funds
                                    $ 688,505


                                      Match
                                       $0




                                          v
                                                              I

                                                       AmeriCorps
                                                       Competitive
                                                         Funds
                                                       $1,633,835

                                                           Match
                                                             $0




                                                             v
                                                                     -
                                                                           Learn and
                                                                             Serve
                                                                             Funds
                                                                            $92,250

                                                                             Match
                                                                              $0




                                Total CNS Funds Retained by the Commission $235,065
                                                                                            I
                                                                                            Funds

                                                                                            $83,347
                                                                                                                 Administration
                                                                                                                    Funds

                                                                                                                   $151,718

                                                                                                                    Match
                                                                                                                   $236,479




                                                                                                                      .c

                                          Total Commission Matching Funds $236,479

        I                         Total CNS Funds Awarded to Sub-grantees $2,444,590                                          I


                                                -l
                        AmeriCorps                AmeriCorps             Learn & Serve:          Subtitle
                         Formula:                 Competitive:                                     H:
                         $688,505                  $1,633,835               $92,250              $30,000

                           Match                     Match                   Match                  Match
                          $353,503                  $64O,2 15               $154,617                 $0

                    Total # of SUBS             Total # of SUBS          Total # o f SUBS     rota1 # of SUBS
                            5                           5                        5                    1

                       Total # of Sites          Total # o f Sites       Total # of Sites     Total # of Sites
                              16                       26                       5                    1



Note: CNS approved $35,894 and $24,653 of carryover from 1996 for use in 1997 for the AmeriCorps Formula
      and PDAT grants, respectively. These amounts are not reflected above.
                                              Commission Funding                                                     Appendix A




                                           Corporation for National Service

                    Funding to the Mississippi Commission For Volunteer Service
     I




         AmeriCorps              AmeriCorps                 Learn and                       PDAT                     Administration
          Formula                Competitive                  Serve                         Funds                        Funds
           Funds                   Funds                     Funds                                                     $177,626
          $610,126               $1,216,477                 $204,820                       $126,827                     Match
                                                                                                                       $358,282
              Match                   Match                   Match                                                   Other CNS
               $0                      $0                      $0                                                        Funds
                                                                                                                      $ 1,436,439
                                                                           J




         I
                v                      v                        v                            v                            'It
                          Total CNS Funds Retained by the Commission $304,453

                                  Total Commission Matching Funds $358,282

                           Total CNS Funds Awarded to Sub-grantees $3,467,862



                                                      *
             Disability
              Funds:          Formula:
                              $610,126
                                                 AmeriCorps
                                                 Competitive:
                                                  $1,2 16,479
                                                                      r-Leam & Serve:

                                                                           $204,820
                                                                                                      Fellows:
                                                                                                      $1 15,000            $1,786,916

              Match            Match                Match                   Match                      Match                    Match
                              $387,336             $552,198                $165,185                   $1 8,742

                                                Total # of SUBS         Total # of SUB?        I Total # of SUBS         rota1 # of SUBS
                                  4                    5                       5                         10

                           Total # of Sites     Total # o f Sites       Total # of Sites         Total # o f Sites       Total # of Sites
                                                      46                       5                                            3 regions



Note: CNS approved $120,899, $348,831, $44,673, and $5,844 of carryover from 1997 for use in 1998 for
      the AmeriCorps Formula, AmeriCorps Competitive, PDAT, and Subtitle H grants, respectively.
      These amounts are not reflected above.
                                         Commission Funding                                                   Appendix A




                                     Corporation for National Service

              Funding to the Mississippi Commission For Volunteer Service - 1999




 I
  AmeriCorps




 -r
  *
   Formula
    Funds
   $749,320

        Match
         $0
                            AmeriCorps
                            Competitive
                              Funds
                            $1,746,245

                               Match
                                $0
                                                   I  Leam and
                                                        Serve
                                                       Funds
                                                      $191,817

                                                         Match
                                                          $0




                     Total CNS Funds Retained by the Commission $319,437
                                                                                       Funds

                                                                                    $1 30,243




                                                                                                              L
                                                                                                              Administration
                                                                                                                  Funds
                                                                                                                $189,194
                                                                                                                 Match
                                                                                                                $514,574
                                                                                                               Other CNS
                                                                                                                  Funds
                                                                                                               $ 1,793,473




                                                                                                                   +
                             Total Commission Matching Funds $5 14,574


   I                  Total CNS Funds Awarded to Sub-grantees $4,480,855




       Disability                           AmeriCorps              Leam & Serve:               Promise           America Reads:
        Funds:          Formula:            Competitive:                                        Fellows:
        $89,100         $749,320             $1,746,245                $191,817                 $1 18,000

         Match                                 Match                    Match                    Match                 Match
          $0             $708,067             $673,887                 $209,701                 $10,106              $1,930,787

 Total # o f SUBS     Total # of SUBS      Total # o f SUBS         Total # of SUBS        Total # of SUB5        Total # of SUBS
         1                                         5                        5                     10                      1

  Total # of Sites    Total # of Sites     Total # of Sites         Total # of Sites       Total # of Sites        Total # of Sites
         1                                       46                        5                      10                  3 regions



Note: CNS approved $1,186, $50,475, $1 1,03 1, $15,757, and $1 17,458 of carryover from 1998 for use in
      1999 for the AmeriCorps Formula, AmeriCorps Competitive, Leam and Serve, PDAT, and Other
      Grants, respectively. These amounts are not reflected above.
                                                              A.7
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

     make a preliminary assessment as to whether the Commission's organizational structure and
     staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B
   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-1 33 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals;

    make a preliminary assessment of internal controls over service hour and program
    accomplishment reporting; and
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-1 33 audit
reports from subgrantees.
                                                                                              Appendix C


                                   MISSISSIPPI COMMISSION FOR
                                       VOLUNTEER SERVICE
                                           OFFICE OF THE GOVERNOR
December 11,2000



Ms. Luise S. Jordan, Inspector General
Office of the Inspector General
Corporation for National Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Ms. Jordan:

The Mississippi Commission for Volunteer Service (MCVS) hereby submits the AUDIT RESPONSE to the
Corporation for National Service - Office of Inspector General Pre-Audit Survey Draft Report. Per your letter
dated November 13, 2000, please include the enclosed thirteen page MCVS audit response as Appendix-C in
your Final Audit Report.

We are providing this letter in connection with your agreed-upon procedures related to the systems and
procedures in place at the Mississippi Commission for Volunteer Service (MCVS) for administering its
AmeriCorps and Corporation for National Service (CNS) grants and for monitoring the fiscal activity of its
Subgrantees for program years 1994-1999. We understand that your review was conducted for the purpose of
evaluating our fiscal procedures, the effectiveness of our fiscal monitoring of AmeriCorps and Learn and Serve
Subgrantees, and the adequacy o f our pre-award selection process.

In order to accurately report audit findings and recommendations, it is necessary to understand the agency's
perspective and explanation under each finding. The MCVS board members and staff would like to thank
CNS-Office of Inspector General in allowing the submission of our audit response to be part of the Final
Report under Appendix-C of the Pre-Audit Survey Report. As part of the audit findings and recommendations
outlined by KPMG and submitted by CNS-Office of Inspector General, MCVS has fully implemented all the
recommendations as evidenced by the attached supporting documentation. Thank you for your continued
support and cooperation in rnalang national service a positive outcome in the State of Mississippi. Warmest
personal regards,




                                                                               Y



                                                       Hitesh ~ e s a i ~

  f
Ex utive Director
M ssissippi Commission for Volunteer
                                                       Chief Fiscal Policy Analyst
                                                       Mississippi Commission for Volunteer




                             3825 RIDGEWOOD ROAD. SUITE 601. JACKSON. MS 39211-6463
                                        . TTY: (601)432-6970.FAX: (601)432-6790 homepage: http://www.mcvs.org
      PHONE: (601)432-6779.1-888-353-1793
                 APPENDIX -C

MISSISSIPPI COMMISSION FOR VOLUNTEER SERVICE (MCVS)
                   AUDIT RESPONSE
                       December 11,2000



                          Prepared by
                      Mr. Hitesh R Desai
                   Chief FiscaYPolicy Analyst




        CORPORATION FOR NATIONAL SERVICE (CNS)
          OFFICE OF INSPECTOR GENERAL (OIG)
            PRE-AUDIT SURVEY DRAFT REPORT
                      Conducted by
                       KPMG LLP




         MCVS Audit Response to CNS-OIG Pre-Audit Survey
                       December 11,2000
FINDINGS, RECOMMENDATIONS, AND MCVS RESPONSE

  I.      Administering Grant Funds (Page 5 of CNS-OZG Draft Report)

  Descriptions of Member Service on Timesheets

  KMPG & CNS-OIG AREA OF IMPROVEMENT ISSUE
  Descriptions provided on timesheets selected for review related to member service performed were
  sometimes vague or without clear relation to program service. As a result, descriptions for member
  service performed do not clearly support that service hours were used in performing allowable
  activities. Americorps Provisions Section B-1 states, "Activities fimded through this grant must help
  engage Americans of all backgrounds as members in community based service that provides a direct
  and demonstrable benefit that is valued by the community."

  KhIPG & CNS-OIG RECOMMENDATIONS
  No recommendation for this finding is considered necessary at this time because the Commission
  redesigned all program member timesheets in 2000 to improve information captured during
  timesheet reporting.

  MCVS AUDIT RESPONSE
  During the 199912000 program year MCVS developed new AmeriCorps member timesheets
  that clearly state and describe each member's service performed in accordance with
  respective program goal and objectives F E E PAGES 6 & 7 FOR SAMPLE TIMESHEET).

  The following current MCVS policies and procedures are in place that clearly support the member
  service hours performed in accordance with all applicable provisions and are allowable activities as
  such:

       During subgrantee site visits, MCVS staff routinely checks on a random basis member files to
       ensure compliance. The files are pulled and checked for completeness and accuracy. During
       these random tests, notes are made by staff which are then transcribed in site visit reports.
       Copies of site visit reports are reviewed by Commission Executive Director and Finance staff for
       accuracy on findings, and the comments/feedback are mailed to subgrantee for comments andor
       corrective action. MCVS independent CPA auditors (Smith, Tew and Phillips), as part of their
       agreed procedures (in accordance with CNS regulations and OMB circulars), randomly test
       member files for compliance. Their findings are reported to MCVS in the full audit report.

  2. MCVS has required all subgrantees to track and monitor member service hours on monthly basis
     to ensure that programs will meet their requirements as stated in their individual grants. The
     service hour log form outlines each member's service hours to date and remaining hours left to
     complete the required term of service (1700 or 900 service hours as stipulated in AmeriCorps
     guidelines). In program year 199912000, MCVS, along with most state commissions around the
     country, were required by CNS to use the WBRS system (Web Based Reporting System).
     Although this system is in its infancy and still working out some technical problems, the


                        MCVS Audit Response to CNS-OIG Pre-Audit Survey
                                      December 11,2000
   potential of the system in the future will greatly enhance Commissions' monitoring role via the
   internet.

3. MCVS has the following policies and procedures in place to ensure that AmeriCorps members are
    not engaging in prohibited activities:

       a) In the grant review process, identify possible problems and recommend corrections
           before submission of final grant to MCVS.
       b) Cooperative grant agreements between subgrantees and MCVS stipulate prohibited
           member activities as part of the provisions.
       c) Member contracts between subgrantees and AmeriCorps members outline a list of
           prohibited activities for AmeriCorps members.
       d) Trainings coordinated by MCVS for program directors in conjunction with review of the
           State AmeriCorps Manual outlines prohibited training activities.
       e) Commission staffs site visit observations monitor for these findings.
       f ) Commission staffs progress report reviews for prohibited activities.
       g) MCVS newspaper clippings of national service programs are reviewed for such activities.
       h) Ongoing member training sponsored by MCVS covers training topics related to member
           service and prohibited activities.

4. MCVS has the following policies and procedures in place to verify member hours
earned for their service in the AmeriCorps program:

       a) Member timesheets are verified and signed by program site supervisors.
       b) Member timesheets are checked by program directors to ensure reporting of corrective
          service hours in relation to their living stipends.
       c) MCVS staff site visits randomly select and test member timesheets for accuracy in
          accordance with the &ant provisions.
       d) In accordance with independent CPA firm (Smith, Tew, Phillips) as outlined in the
          agreed procedures, auditors randomly check member files for hours claimed and earned
          in accordance with AmeriCorps provisions.


II. Evaluating and Monitoring Subgrantees (Page 6 of CNS-OZG Drafi Repori)

Review of OMB Circular A-133 Audit Reports

KMPG & CNS-OIG AREA OF IMPROVEMENT ISSUE
OMB Circular A-133 Compliance supplement, April 1999, Part 6-Internal Control suggests review
of and follow-up on subgrantees' audit reports is a key component of a program to monitor
subgrantees' compliance with federal grant requirements. However, the Commission has not
implemented an adequate process for obtaining and reviewing OMB Circular A-133 audit reports for
its subgrantees.



                     MCVS Audit Response to CNS-OIG Pre-Audit Survey
                                   December 11,2000
KMPG & CNS-OIG RECOMMENDATIONS
We recommend that the Commission improve its evaluation and monitoring of subgrantees by
developing and implementing a process for obtaining and following up on OMB Circular A-
133 audit reports for its subgrantees. This process should include documenting, for each of its
subgrantees, (I) whether an OMB Circular A-133 audit was required to be conducted, (2) whether
the audit was actually conducted, (3) collection and review of the reports, and (4) follow up
procedures performed for missing reports and to resolve reported findings.

MCVS AUDIT RESPONSE
With the assistance of KPMG auditors, MCVS has implemented the use of an official OMB A-
133 Audit Checklist (SEE PAGES 8-13 FOR SAMPLE). A formal procedure to ensure that
OMB Circular A-133 audit reports are received, reviewed, and followed up from applicable
subgrantees on a timely basis is and has been in place since 1997 as outlined below. What
MCVS lacked was an official OMB A-133 Audit Checklist to use as a monitorinp and
evaluatinp tool. CNS grants office and CNS program staff on their site visits to MCVS have
NOT given any direction on what the written policies and procedures are with regard to a
checklist for A-133 audits.

MCVS in conjunction with the State Auditor's Office has implemented the following procedures
which have met the required federal auditing standards with regard to OMB A-133 Circular
reports:

1. Under MCVS Cooperative Grant agreements with all of its subgrantees under Section 10-E
(and Section 21 and 23d under the AmeriCorps provisions), MCVS has stipulated as part of the
grant agreement that all programs MUST submit two (2) copies of their program audit and two
(2) copies of the Auditor's report summarizing the findings and recommendations no later than
THIRTY (30) days aper completion of the Audit. MCVSfiscal staff reviews these reports and
issues writtenfeedback and/or corrective action steps based on the auditor'sfindings. Sub
grantees must respond to MCVS in writing.

 2. MCVS, as a continuous improvement measure, has also contracted with an independent CPA
firm (Smith, Tew, and Phillips) to conduct Program Compliance & Monitoring audits of all
AmeriCorps programs based on a set of agreed upon procedures in accordance with OMB A-133
requirements. Thefindings are reviewed by MCVS fiscal staff and the CPA 's before requesting
each subgrantee to report on thefindings with corrective action measures within a thirty (30) day
period.

3. As part of the A-133 audit process and the Certified Program Cost of all subgrantees, MCVS
ofice is usually notwed by respective Auditors of all subgrantees with a letter. The letter is to
verijli( the grant, CFDA numbers, amounts awarded, and the program that is being audited We
request that the auditingfirm furnish our office with a copy of the report directly to us.




                    MCVS Audit Response to CNS-OIG Pre-Audit Survey
                                  December 11,2000
CONCLUSION

MCVS, as the official state agency for volunteerism and as the state's national community service lead
agency, pursuant to all federal and state guidelines has developed and implemented a comprehensive
vision and ethic of service throughout the state. As part of the implementation plan, MCVS has
established very stringent financial and programmatic policies and procedures to ensure h l l compliance
with all applicable federal and state statutes. MCVS is also continuously improving its existing policies
and procedures to ensure that the federal and state funds (taxpayer monies) are administered with the
highest safeguards with regards to sub-granting of hnds. The Corporation for National Service (CNS)
Office of Inspector General Pre-Audit Survey conducted by KPMG of MCVS was also welcomed as
another continuous improvement strategy that strengthened existing policies and procedures.

In order to accurately report audit findings and recommendations, it is necessary to understand the
agency's perspective and explanation under each finding. The MCVS board members and staff would
like to thank CNS-Office of Inspector General in allowing the submission of our audit response to be
part of the final report under Appendix-C of the Pre-Audit Survey Report. As part of the audit
findings and recommendations outlined by KPMG and submitted by CNS-Office of Inspector
General, MCVS has fully implemented all the recommendations as evidenced by supporting
sample forms on the following pages.




                         MCVS Audit Response to CNS-OIG Pre-Audit Survey
                                       December 11,2000
                                                                                                                 Status: Please check one box.
        AMERICA               I


        READS                                    AmeriCorps                                                      a   Full-time AmeriCorps
        MlSSlSSlYYl                                                                                                  Stipended
                                                  Time Sheet
                                      School Site Related Activities Only
                                  (Service hours outside of school site related activities nust be                   Full-time AmeriCorps
                                           recorded on the Outside Hours Time Sheet)

        Member Name:                                                                         Soc. Sec. Number:

        School:                                                                   MonthNear:
            1.  Tutoring Activities (tutoring students one-on-one and in small groups, activities supporting tutoring such as making portfolios,
                gathering materials, preparing for tutoring, grading papers, follow-up after tutoring)
            2. Extended Hours Tutoring (beforelafter school, weekends, school breaks, summer)
            3. ARM Related Paperwork (timesheets, monthly team reports, programmatic evaluations, etc.)
            4. Member Development (weekly team meetings, meetings with site supervisor, school staff, or ARM staff, committees or other school
                groups, visiting wlcareer counselor, developing resume', visiting colleges and universities, contact with colleges and universities
 W              regarding enrollment, contact with MS Department of Education or others for information on becoming a certified teacher)

 a          5 . Training (ARM regional and state training and retreats, statewide conferences, school/district training, other training)
            6 . Service Projects (planning, implementing, reflecting, and evaluating local and statewide service projects, meeting with community

 0              groups and representatives about service projects)
            7. Volunteer Recruitment (recruiting and assisting with volunteers in the schools or other community agencies or organizations to

 U              support the literacy needs of children)
            8. Parent Communication and Involvement (written communication, conferences, verbal communication, home/school activities with
                parents as a part of the instructional program, invitations to school events and classroom activities)
            9. Other (MUST OBTAIN APPROVAL FROM ARM REGIONAL STAFF OR HOURS WILL NOT BE COUNTED)
            10. AbsentJTardy


 Date      Time In    Time Out      Code(s)                                  Activity Summary                         Training   Service     TOTAL
                                                                                                                       Hours      Hours      HOURS
1.
           *Please estimate your service hoursfor the 26LI - 31' of each month as accurately as possible. Any additions, deletions or corrections must be
           documented on the n m month's timesheet
1   '26.    1                                                                                                                                                                1




           -
           Note:      Please document any correctionsfrom the previous month's timeshed here:



                                                                          APPROPRIATE SERVICE HOURS
           Under Corporation policy, AmeriCorps members must provide a direct and demonstrable benefit that is valued by the community. SERVICE ACTIVITIES
           MUST BE'RELATEDTO THE GO&S AND OBJECTIVES OF THE PROGRAM WITH WHICH THE MEMBER IS SERVING. In all cases, service
           activities must result in a specific identifiable service or improvement that otherwise would not be provided with existing funds or volunteers, and that does
           not duplicate the routine functions of workers or displace paid employees. If you are not sure whether an activity you are planning is an appropriate service
           activity, ask your program director BEFORE you engage in the activity. Inappropriate service hours will NOT be counted toward your 1700 hours.

                                                                      AmeriCoros PROHIBITED ACTIVITIES
           There a r e certain activities that AmeriCorps members and staff may not perform in the course of their duties. Furthermore, members and staff
           may not engage in any conduct in a manner that would associate the national service program o r the Corporation with the prohibited activities.
           The list of these prohibited activities includes:
                Any effort to influence legislation or an election, including state or local ballot initiatives or lobbying.
                Voter registration drives.
                Aiding or engaging in partisan political activities or other activities designed to influence the outcome of an election to any public office.
                Organizing or engaging in protests, petitions, boycotts or strikes.
                Assisting, promoting, or deterring union organizing.
                Impairing existing contracts or collective bargaining agreements.
                Engaging in religious instruction, conducting worship services, or engaging in any form of religious proselytizing.
                Activities that pose a significant safety risk to participants.
                Assignments that displace employees.
                Participating in, or endorsing, events or activities which are likely to include advocacy for or against political parties, political platforms, political
                candidates, proposed legislation, or elected officials.
                Providing assistance to a business organized for profit, or receiving any type of compensation for services rendered while serving in an AmeriCorps
                capacity.
                Other activities as the Corporation for National Service andlor the AmeriCorps program determines as prohibited.
                Prohibited activities are listed in your member manual, member contract and page 15 of the AmeriCorps Member Handbook.

                      AmeriCorps members, like other private citizens, may participate in lobbying, political, or advocacy activities on their own time, at their own
           -em,      and at their own initiative However, members may not wear AmeriCorps servicegear or earn service hours in such instances.

                     I certify that the times and activities indicated above are appropriate service hours, accurate and correct, and that none of the activities I have
           claimed as service and/or training hours are prohibited as specified above.

           Member signature:                                                                                                   MonthlDayNear:
           School site supervisor signature:                                                                                   Month/DayTYear:
           Regional ARM staff signature:                                                                                       MonthlDayNear:
                                           Helpful Hint: Please make a copy of your timesheets for your records.
                   A-133 Audit Review Form
   MISSISSIPPI COMMISSION FOR VOLUNTEER SERVICE (MCVS)

Oganization:

Fiscal Year:

Reviewer:                                            Date of Review:

                                Reauired Audit Reporting
                                                   Opinion, or Disclaimer of Opinion
                                                   --


ntemal Control Report                              Scope of testing:
                                                   Results of testing:
                                                   Findings:
         --


Clompliance Report                                 Opinion, or Disclaimer of Opinion

Schedule of findings and questioned costs:         Unqualified opinion,
rype of report issued                              qualified opinion,
                                                   adverse opinion, or
                                                   disclaimer of opinion

Schedule of findings and questioned costs:         None
Reportable conditions in internal control and      Material Weaknesses
Opinion re: material weaknesses

Schedule of findings and questioned costs:         Yes
Noncompliance material to the financial            No
statements of the auditee

Schedule of findings and questioned costs:         Unqualified opinion,
Type of report issued on compliance for            qualified opinion,
major programs                                     adverse opinion, or
                                                   disclaimer of opinion

Schedule of findings and questioned costs:
Identification of major programs, and dollar
Threshold used to distinguish between
Type A and Type B programs

AmeriCorps Program selected?                       Yes
                                                   No

Schedule of findings and questioned costs:         Yes
Low-risk auditee?                                  No

Other:


                                             C.9
                             MCVS AUDIT REVIEW CHECKLIST


SUBGRANTEE:

AUDIT PERIOD:

AUDIT FIRM:

How much federal assistance did the Subgrantee receive in the subject audit year?


Was the amount of federal assistance less than $25,000? If yes, no further review is necessary.
      Yes( 1         No( )

                             SUMMARY OF A-133 DESK REVIEW

Below are the results of my review of each major area:

        Area                 Checklist         Errors             Errors             Report
                             Reference        Require             Require           Contains
                                              Minor or             Major           Sigmficant
                                             No Change            Change          Inadequacies
Qualif./Independence 1 to 2
Report on Fin. Strnts. 2 to 3
Report on SFFA         4 to 5
                       I                 I                  I

Rpt. on Int. Control   1 6 to 9
Rpt. on Compliance         10 to 11
Other                      12 to 20-


In my opinion, the report is:

( )    Acceptable and requires no or only minor changes.
( )    Substandard and requires major changes.
( )    Unacceptable due to significant inadequadies.


Signature of Reviewer                                              Date

Signature of Supervisor                                            Date



A-133 DESK REVIEW CHECKLIST                  YES     NO     NIA             Comments

Opinion and Explanatory Paragraphs
   1. If the financial statements are
      intended to be presented in
      accordance with GAAP, does
      the report contain an opinion
      on whether the financial
      statements present fairly the
      financial position, results of
      operations and changes in cash
      flowlfinancial position in
      conformity with GAAP; or an
      assertion that an opinion cannot
      be expressed? (A- 133, par. 12.b.(l))

  2. If the financial statements are
     intended to be presented in
      accordance with another
     comphrensive basis of accounting:
     a. Is there a separate explanatory
          paragraph which states or refers
          to a note describing the basis
          of presentation or refers to the
          note to describe how the basis
          differs from GAAP, that the
          financial statements are not
          intended to be presented in
          conformity with GAAP?            - - -

      b. Does the report contain a
         disclaimer on whether the
         financial statements are fairly
         presented in accordance with
         the basis of accounting
         described?                           - - -

   3. If a disclaimer of opinion is issued,
      are the reasons stated? (Note: If
      the reasons have an impact on the
      federal awards, identify the reasons
      and their effects under "Comments")

   4. Are there separate explanatory paragraphs
      disclosing each substantive reason for
      withholding an unqualified opinion?
A-133 DESK REVIEW CHECKLIST                 YES   NO   N/A   Comments

   5. Are the principal effects of each
      qualification of the opinion given?
      The opinion should disclose the
      effect if reasonably determinable or,
      if not, the report should so state. If
      reported effects adversely impact
      federal assistance programs, identify.
Report@)on Internal Control

      Does the report on internal control
      reference the financial statements'
      examination? (A- 133, Par. 12.b.
      (1) and (2))                          - - -

      Does the report of internal control
      state that the examination was
      performed in accordance with:

      GAGAS? (A-133, Par. 12.a.)

      OMB Circular A- 133 : (A- 133,
      Par. 15.b.)                           - - -

      Has the auditor clearly described the
      scope of the work in obtaining an
      understanding of the internal control
      structure and in assessing internal
      control? (A-133, Par. 15.c.(2))       - - -

      Does the report on the study and
      evaluation of internal control identify:

      The entity's significant internal
      controls or control structure
      including those controls established
      to ensure reasonable assurance that
      federal programs are being managed
      in compliance with applicable laws
      and regulations and that there is
      complaince with laws and regulations
      that have a material impact on the
      financial statements?                - - -

A-133 DESK REVIEW CHECKLIST                  YES   NO   NIA   Comments

       The controls that were not evaluated
       and the reasons therefore?           - - -

       The reportable conditions identified
       as a result of the evaluation or a
       statement that none were identified?
       (A-133, Par. 15.~.(2))               - - -

Auditor's Report(~)on Compliance

    10. Does the report on compliance
        reference the examination of the
        financial statements?                - - -
   11. Does the report on compliance
       state that the audit was made in
       accordance with:

        OMB Circular A- 133? (A- 133,
        Par. 15.b.)                          -

        GAGAS? (A- 133, Par: 12.a.)

Other

   12. Does the auditor's report disclose
       the status of known but uncorrected
       significant material findings and
       recommendations from prior audits
       that affect the current audit objectives
       as specified in the Government Auditing
       Standards? (A-133, Par. 15.h.)

   13. Does the document include a report
       of the recipient's comments on the
       findings and recommendations in the
       report, including a plan for corrective
       action taken or planned? (A- 133, Par.
       15.h.)                                 -

   14. Does the document include a report on
       the recipient's comments on the status
       of corrective actions taken on prior
       findings? (A-133, Par. 15. h.)
A-133 DESK REVIEW CHECKLIST                 YES   Comments

   15. If the recipient has determined that
       corrective action is not warranted,
       has it provided a statement describing
       the reason(s) that corrective action is
       not necessary? (A-133, Par. 15.h.)

   16.   re the auditor's reports dated?     -

   17. If the audit report cites any sensitive
       matters which warrant audit or
       investigative concern, list the matters
       and the Federal agencies to which
       they relate.

    18. Was the report submitted w i t h 13
        months from the end of the audit
        period? (A-133, Par. 15.i.)         -
19. If the auditor became aware of illegal
   acts or irregularities, was prompt
   notice given to recipient management
   at the appropriate levels?          - - -

20. Were there any material discrepancies
    noted in the SFFA that require follow-
    up with the subrecipient and a request
    for auditor assurance? .             - - -
                                                                            Appendix D




Memorandum

TO:            Luise S. Jordan, Inspector General

THRU:       @&~dnancial                           oficer

FROM:          Peter Heinaru, Director, AmeriCorps State

DATE:          December 13,2000

SUBJECT:       Comments on OIG Draft 0 1- 15; Pre-Audit Survey of the Mississippi
               Commissionfor Volunteer Service


We have reviewed the draft pre-audit survey of the Mississippi Commission for Volunteer
Service (MCVS) and are pleased to note that the Mississippi Commission:

        +   conducts a fair, open competitive process for its subgrant selections;

        +   has adequate internal controls, policies and procedures to administer the
            Corporation's       funds; and

        +   has established adequate controls to evaluate and monitor subgrantees.

The report contains two minor findings and one recommendation that we will briefly address.

The first finding cited is in the area of "Administering Grant Funds, and relates to the
                                                                      "


descriptions of service activities Members note on their timesheets. Specifically, the finding
states that the descriptions on member timesheets were "sometimes vague or without clear
relation to program services. As a result, descriptions for Member service performed do not
clearly support that service hours were used in performing allowable activities." The report
also notes that the Mississippi Commission has redesigned its timesheets to improve the
information captured and thus no recommendation is made.

However, the Corporation would like to point out that, as a matter of policy, neither OMB
Circular A-122 nor the AmeriCorps provisions require Members to provide any additional
information beyond time and attendance records. The actual requirement is that "The
Grantee must keep time and attendance records on all AmeriCorps members in order to
document their eligibility for in-service and post-service benejh. Time and attendance
Ms. Luke Jordan                           Page 2                            December 12. 2000

records must be signed both by the member and by an individual with oversight
responsibilities for the member. "

While the Mississippi programs' practice of filling in specific descriptions of activities by
daily hours may be useful information for them, it exceeds any requirements for timesheets.
To suggest that this voluntary practice needs further improvement in its documentation in
order to support the hours reported has no basis in the OMB or Corporation requirements and
appears excessive.

As part of the discussion on Member timesheets, the draft report also states that the auditors
"determined that the Commission has not fully implemented Web Based Reporting System
(WBRS)." The report continues with a brief description of concerns that Commission
personnel shared with KPMG about WBRS. Without more information about how this
determination was made and to what extent the auditors determined that WBRS has or has
not been implemented, we are not in a position to substantively address this comment.

However, we wish to point out that WBRS first year of full implementation began in
September 1999, with the expectation that programs would enroll members "on-line" for the
1999-2000 program year. At the time of the pre-audit survey, Mississippi was in the middle
of its 1999-2000 program year. In fact, most of the Mississippi grantee information profiles
were uploaded by November 1999. The Corporation does not consider such a delay in
phasing in the uploaded information as unusual, particularly in the system's initial
implementation. The draft report also noted the Commission's concern that "WBRS does
not work for programs that are funded for more than one year." It is not clear to us what
issue this statement is addressing.

A final concern the Corporation would like to address is the Commission's understanding
that "WBRS progress reports are limited to only two for the entire year." In fact, WBRS will
permit as many local program reports as the Commission requests its subgrantees to produce.
Each report requested in WBRS will summarize information from the date of the last report
to the current date. This can be usefulin a number of ways to the program and it also allows
commissions to select whatever reporting periods and due dates it deems appropriate beyond
the reporting requirements of the Corporation.

The Corporation, in coordination with the WBRS technical assistance provider, will continue
to provide assistance to the Commission so that it may better support its programs'
understanding and application of WBRS.

 The second finding cited is in the area of "Evaluating and Monitoring Subgrantees. " The
 finding and corresponding recommendation concerns improvement in the Commission's
 process to obtain and follow up on subgrantee independent A-1 33 audits. In the
 Corporation's monitoring of the Commission, this concern was addressed in a March site
 visit and subsequent feedback letter, which noted that "Documentation could not be provided
 that supports the Commission's tracking of A-1 33 reports required of certain sub-grantees.
 The Commission needs to maintain a current listing of all its sub-grantees for each program
 year that requires an A-133 audit. The listing should also track the audit reports received and
Ms. Luke Jordan                         Page 3                          December 12.2000


reviewed by MCVS, the identified findings that require follow up, when the follow up
occurred and how it was resolved." The Corporation will work with the Mississippi
Commission to ensure that their process for managing subgrantees' OMB A- 133 audits is
adequate.

c:   Deb Jospin
     Wendy Zenker
     Peg Rosenberry
     Gary Kowalczyk
